OIG Investigative Reports, Bloomington Man Sentenced to Eight Years, Nine Months Imprisonment For Hurricane KATRINA Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
FOR IMMEDIATE RELEASE:
Indiana, Tuesday, May 8, 2007
SUSAN W. BROOKS
United States Attorney
Southern District of Indiana
Contact Person
MARY BIPPUS
(317) 229-2403
Fax: (317) 226-5002
Cell: (317) 590-7928
BLOOMINGTON MAN SENTENCED TO EIGHT YEARS, NINE MONTHS IMPRISONMENT FOR HURRICANE KATRINA FRAUD
Susan W. Brooks, United States Attorney for the Southern District of Indiana,
announced that ALAN R. KING, JR., 29, recently of Bloomington, Indiana, was sentenced to
105 months imprisonment by U.S. District Judge David F. Hamilton following his guilty pleas
to the following federal crimes: theft of government money (Hurricane Katrina FEMA relief
funds); loan fraud; false use of Social Security Numbers; and Student Financial Aid Fraud
(PELL Grant money).
In September, 2005, Attorney General Alberto R. Gonzales created the Hurricane
Katrina Fraud Task Force, designed to deter, investigate and prosecute disaster-related federal
crimes such as charity fraud, identity theft, procurement fraud and insurance fraud. The
Hurricane Katrina Fraud Task Force - chaired by Assistant Attorney General Alice S. Fisher
of the Criminal Division - includes the FBI, the U.S. Inspectors General community, the U.S.
Secret Service, the U.S. Postal Inspection Service, the Executive Office for United States Attorneys, and others. This case was the result of an investigation by the Offices of Inspector
General for the Department of Homeland Security (DHS), Social Security Administration
(SSA) and Department of Education (DOE).
KING perpetrated numerous frauds against numerous people, financial institutions, and
government agencies between March 2004 and July 2006. During October 2005, KING filed
three totally fictitious applications for FEMA disaster assistance relating to the Katrina natural
disaster. KING filed two applications in his own name and SSNs (KING actually had two
SSNs issued to him by SSA, having fraudulently convinced SSA that he was the victim of
fraud and that his original SSN had been compromised) and one in the name and SSN of a
relative. At the time, KING was living in Bloomington, Indiana. On these claims, KING
asserted that he and his family member lived at two different addresses in New Orleans and
one in Biloxi at the time of the hurricane and flood. He claimed that their housing and two
vehicles were destroyed. He also submitted false leases, rental receipts and other documents to
substantiate the claims. As a result of these false claims, KING fraudulently obtained twelve
(12) separate payments from FEMA totaling $43,972.10.
Between June 2004 and July 2006, KING filed at least fourteen (14) separate fraudulent
loan applications to obtain student loans thru The Education Resource Institute, a non-profit
organization that partners with federally insured financial institutions who issue the loans.
KING submitted fraudulent documents showing he was a student, as well as fraudulent check
stubs for people who were allegedly co-signing the loans for him. KING forged the alleged
co-signers' names. KING fraudulently obtained and used the names and SSNs of three
separate individuals as the alleged co-signers on the loans. Seven (7) of these loans were actually granted, and KING fraudulently received $105,000.00 from them. KING deposited
these monies to his bank accounts and spent the money for personal expenses. Six of the other
loan applications, seeking another $125,000.00, were denied for various reasons. The
fourteenth loan was granted and checks for $30,000.00 issued, but federal agents had learned
of the scheme and were able to make a controlled delivery of one of those checks, and arrest
KING. In addition, KING falsely obtained and attempted to obtain several loans, totaling over
$60,000.00, from financial institutions, relative to vehicle purchases. KING used another
person' s SSN to obtain approximately $40,000.00 in loans, most of which he used to purchase
a 2005 Mercedes Benz. Less than a year later, he created a fictitious letter from the lender,
stating the vehicle was paid for. He took that letter to the Indiana BVM and obtained clear title
to the vehicle. He then took that letter to two financial institutions to obtain loans in the
amount of $10,000.00. One financial institution gave him a loan; the other did not. KING
also took the 2005 Benz to a Fishers auto dealer, who valued it at $19,000.00; he traded it in
on a Mercedes Benz convertible. When the financing fell thru on the trade, the car dealer gave
KING a check for $19,000.00 because they had already sold the 2005 Benz. Ultimately that
$19,000.00 was used to pay part of the loan to the financial institution who had granted the
original loans.
In addition to the false SSNs used by KING as discussed above, KING also used the
SSNs of other people to obtain credit from J.P. Morgan Chase, Target, Aaron' s Rental, and
Sears, and then charge personal items to those accounts in the amount of $6,494.46.
In July 2004, KING also submitted false applications and other documents to obtain a
Department of Education (DOE) insured loan, ie, a PELL Grant in the amount of $2,025.00.
According to Assistant United States Attorney Susan Heckard Dowd, who prosecuted
the case for the government, Judge Hamilton also imposed 5 years supervised release following
King' s release from imprisonment and ordered King to make restitution to his victims in the
total amount of $183,845.54.
Printable view
Share this page
Last Modified: 05/15/2007
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov